                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 110080038                                                                      Page 1 of 1



                This case was generated from a proactive review ofNSF SBIR awards to companies that lack
         adequate research facilities. The president 1 of a company, the PI on three NSF SBIR awards, listed
         addresses for his company's facilities which we determined to be residential properties. From
         information reviewed, it appeared that he may have misrepresented his company's research facilities
         and provided false information in the three NSF proposals.

                  We reviewed the three proposals and related reports and determined that all the research
         work was conducted at subcontractor facilities. The PI did not state or claim that work was
         performed at his company's facilities. We contacted the PI and confirmed that the company's
         current and prior facilities are/were housed at his residence. However, he explained that only
         machine-work, milling and lathe work is performed in the large garage adjacent to his home. All
         laboratory work was/is done at universities/subcontractor facilities. Consequently, we
         determined that the PI did not make any false statements or claims regarding his company's
         facilities or where research was conducted on the NSF awards.

                There is no evidence of any wrongdoing, false statements, or false claims by the PI.
         Therefore, no further investigative activity is warranted in this matter.

         This case is therefore closed.




NSF OIG Form 2 (11/02)
